<html>
<title> - HEARING ON THE NOMINATION OF THOMAS L. STRICKLAND TO BE ASSISTANT SECRETARY FOR FISH AND WILDLIFE AND PARKS OF THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 111-1182]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1182

                      HEARING ON THE NOMINATION OF
                       THOMAS L. STRICKLAND TO BE
               ASSISTANT SECRETARY FOR FISH AND WILDLIFE
              AND PARKS OF THE DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS
                      
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
       
                                     _____
                                     
                       U.S. GOVERNMENT PUBLISHING OFFICE 

94-024 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      

                               __________

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 26, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Udall, Hon. Mark, U.S. Senator from the State of Colorado........     4
Bennet, Hon. Michael F., U.S. Senator from the State of Colorado.     5
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    40
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................    50
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri, prepared statement...................................    51

                                WITNESS

Strickland, Thomas L., nominated to be Assistant Secretary of 
  Fish and Wildlife and Parks of the Department of the Interior..     6
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Lautenberg.......................................    13
        Senator Whitehouse.......................................    16
        Senator Inhofe...........................................    18
        Senator Voinovich........................................    31
    Response to an additional question from Senator Bond.........    37

 
   HEARING ON THE NOMINATION OF THOMAS L. STRICKLAND TO BE ASSISTANT 
  SECRETARY FOR FISH AND WILDLIFE AND PARKS OF THE DEPARTMENT OF THE 
                                INTERIOR

                              ----------                              


                        THURSDAY, MARCH 26, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the Committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Cardin, 
Carper, Klobuchar, and Udall.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The Committee will come to order.
    It looks like we are going to be able to move quickly 
through this. Today, we have before us the nomination of Thomas 
Strickland to be Assistant Secretary of the Interior for Fish, 
Wildlife and Parks.
    I want to say congratulations, Mr. Strickland, on this 
nomination. I know we all agree that we live in a Nation 
blessed with spectacular public lands and a rich array of 
wildlife, and I am so pleased to see someone so strongly 
committed to protecting these resources under consideration for 
this very key position.
    If you are confirmed, you will oversee the protection of 
these treasures, including some of my State's most important 
wildlife refuges, one in San Francisco Bay, another in San 
Diego. There are many others.
    You will also be responsible for many more special places, 
including the Golden Gate National Recreation Area, Point 
Reyes, and Yosemite National Park. I am just naming just a tiny 
number.
    By the way, with this public lands bill on the way to the 
President and I hope he will be signing it on Monday or so, we 
have another 770,000 acres in California under wilderness 
designation. This was done with my Republican colleagues in the 
House.
    So I think your job is really one to be envied because to 
have a chance to protect all this I consider God's gift to us 
is a great responsibility and it is a great opportunity.
    The Fish and Wildlife Service has gone through quite a 
difficult time. Many of us believe, not all of us believe this, 
but I believe that conservation laws have been undercut and 
public lands have deteriorated, and in many cases the 
scientists were not able to speak.
    The Interior Department's Inspector General found political 
interference by the then-Deputy Assistant Secretary for Fish 
and Wildlife. The IG stated that ``she caused,'' and this is 
the IG speaking not me, ``considerable harm to the integrity of 
the ESA program and to the morale and the reputation of the 
Fish and Wildlife Service.''
    Now, this gives you a real opportunity to lead that agency, 
and to talk about what is right, what is wrong. And we all want 
science to prevail. That is essential. Well, the good news is 
that this month on the Interior Department's 160th anniversary, 
President Obama committed to restore scientific integrity, and 
he said, ``By being open and honest with the American people 
about the science behind our decisions, that is how we will 
harness the power of science to achieve our goals to preserve 
our environment.''
    So I think the President has basically said science must be 
front and center. And I look forward to hearing from you as to 
how you will fulfill this commitment to put the science first.
    One of the critical issues the Fish and Wildlife Service 
will also face is the impact of climate change on habitat. The 
world's leading panelists have found that up to 40 percent of 
the planet's species are at risk of extinction from global 
warming.
    Another issue that needs your attention is the severe 
maintenance backlog at our national wildlife refuges. Over 300 
Fish and Wildlife Service positions have been eliminated since 
2004, 300 positions. Funding shortfalls have limited public 
access. They have reduced law enforcement. They have threatened 
the wildlife in the system.
    Recent funding in the American Recovery and Reinvestment 
Act will help to address immediate needs at our refuges, but a 
long-term solution is needed.
    I look forward to hearing from you today on these issues 
and about your plans for revitalizing the Fish and Wildlife 
Service.
    And again, I just want to say that I have the privilege of 
knowing Tom Strickland. I think he is a man of great integrity, 
and I know he is going to well with both sides of the aisle.
    With that, I turn to my Ranking Member, the esteemed 
Ranking Member, Jim Inhofe, and after his statement, at that 
time, we will go to the introduction.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    And also, Mr. Strickland, thank you for spending some time 
with me and I look forward to working with you.
    Unfortunately, simultaneously with this, we have an Armed 
Services Committee hearing, so I have to go back and forth and 
won't be here for a lot of the time.
    The Assistant Secretary for Fish and Wildlife and Parks at 
the Department of Interior is responsible for overseeing a lot 
of important programs. You and I talked about these programs, 
and many of these are very significant.
    I am troubled by the Service's recent congressional mandate 
to revise and reissue ESA rules concerning the listing of the 
polar bear and modifications to the Section 7 consultation 
process. My concern is not that reasonable minds disagree about 
whether these are good rules or about the Department's 
authority to properly revisit the rules. Rather, I am concerned 
that Congress has given the Services the unusual authority to 
waive all requirements for public input and allowances for 
legal objections under the Administrative Procedures Act, while 
dictating that these rules be revised within what is now less 
than 60 days.
    These are some of the concerns I have. And Madam Chairman, 
I would like to put the entire opening statement in the record.
    What I would like to do, I am going to try to be here 
during question and answer time, but should I not, in your 
opening statement the commitment I would ask of you, Mr. 
Strickland, is that you make the commitment that you and your 
staff will treat the minority requests to your office with the 
same level of attention that you would the majority requests. I 
know you told me individually. I wanted to get this on the 
record, and if you would make that statement perhaps in your 
opening remarks.
    What I am going to try to do is get back here, Madam 
Chairman, in time for questions. All right?
    Senator Boxer. Yes, absolutely.
    Senator Inhofe. Thank you.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Good morning. We are here today to consider the nomination 
of Thomas Strickland for Assistant Secretary for Fish and 
Wildlife and Parks at the Department of Interior.
    The Assistant Secretary for Fish and Wildlife and Parks at 
the Department of Interior is responsible for overseeing many 
important programs at the Department. Most notable to this 
Committee is the management of the U.S. Fish and Wildlife 
Services and the implementation of the Endangered Species Act.
    Mr. Strickland, I am very troubled by the Service's recent 
congressional mandate to revise and reissue ESA rules 
concerning the listing of the polar bear and modifications to 
the section 7 consultation process. My concern is not that 
reasonable minds disagree about whether these are good rules or 
about the Department's authority to properly revisit the rules. 
Rather, I am appalled that Congress has given the Services the 
unusual authority to waive all requirements for public input 
and allowances for legal objections under the Administrative 
Procedures Act while dictating that these rules be revised 
within what is now less than 60 days.
    Given the majority's constant complaints to the last 
Administration about the lack of process, it is at the very 
least ironic they would be so bold as to willfully set aside 
rules protecting public input and transparency. Should you be 
confirmed, I strongly urge you to use your authority to ensure 
that guarantees of public process in the APA are followed when 
revising the polar bear and consultation rules. Anything less 
will be taken as an abdication of this Administration's 
commitment to transparency and integrity. More importantly, it 
will certainly start you off on the wrong foot with the 
Republicans on this Committee.
    Aside from the controversies associated with ESA, the Fish 
and Wildlife Service does a great deal of good. One of the 
programs I am particularly interested in is the Partners for 
Fish and Wildlife Program, which conserves habitat by 
leveraging Federal funds through voluntary private landowner 
participation. I look forward to working with you on this and 
other issues.
    I am anxious to hearing your perspectives on the issues 
that will be raised today. Most importantly, I welcome you to 
the Committee.
    I am sorry that Jon Cannon is not here today. I was 
surprised to learn about his decision to remove his name from 
consideration to be Deputy Administrator of the Environmental 
Protection Agency. As part of the oversight process, my staff 
met with Mr. Cannon and questioned him about grants received by 
a foundation on which he was a board member. My staff made it 
clear that though the organization committed serious missteps 
in managing Federal grants, it did not warrant opposition to 
Mr. Cannon's nomination. I have long made EPA grant oversight a 
priority, and I am looking forward to working with the next 
nominee to be Deputy Administrator.

    Senator Boxer. We are not going to have any more opening 
statements except that Senator Carper wanted to give a welcome.
    Senator Carper. Mr. Strickland, welcome. I think I have 
seen you before. It is nice to see you here today, especially 
sitting with Mark Udall. We are delighted you are here, and 
appreciate your willingness to take this on.
    Thank you. I will have more to say later, but we are glad 
you are here.
    Senator Boxer. Is that it? You are done? OK.
    Senator Bennet, how nice to see you.
    Well, why don't we then call on first Senator Mark Udall, 
and then Senator Bennet, to introduce our esteemed nominee. And 
then we will get to your opening statement and then we will 
hear from our colleagues.
    Go ahead.

             OPENING STATEMENT OF HON. MARK UDALL, 
            U.S. SENATOR FROM THE STATE OF COLORADO

    Senator Udall. Good morning, Madam Chairwoman and Ranking 
Member Inhofe.
    Madam Chairwoman, if I could, I would ask for unanimous 
consent for my formal statement to be included in the record.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. Absolutely.
    Senator Udall. Thank you, Madam Chairwoman.
    Just 2 months ago, the Senate had the pleasure of sending 
one of our own, Senator Salazar, to head the Department of 
Interior, and he also happened, and he still happens to be a 
Coloradan. Today, I have the honor of introducing another 
Coloradan, Tom Strickland, to be the next Assistant Secretary 
for Fish and Wildlife and Parks for the Department of Interior.
    I would tell you that I am particularly pleased, as the 
Chairman of the Subcommittee on Energy and Natural Resources 
for National Parks, to support Tom's nomination, because he has 
a long history of activism on behalf of protecting National and 
State parks.
    If you will excuse me for indulging in a bit of home State 
pride, it is I think exciting to see so many Coloradans who 
have given up the opportunity to live in such a wonderful State 
to be here in Washington at this historic time. And I think it 
speaks highly of Senator Salazar's capacity to motivate the 
people around him that he has been able to draw such talent.
    It is clear that Tom Strickland will be an excellent 
Assistant Secretary of the Interior. He has an exceptional 
record of success in the private and the public sector. He also 
has an extraordinary wife, Beth, who is here with him today who 
is inspirational in her own right and her own successes.
    I mention Tom's public and private sector experience. He 
served as the U.S. Attorney from 1991 to 2001. He also has 
worked as a partner in a number of law firms, and for the 
lawyers here, he served as the managing partner at a couple of 
these law firms. And you know, if you can mobilize and inspire 
and lead 100 or more attorneys all at the same time, you have 
real talent.
    In the 1980s, he served as then-Governor Lamm's Chief 
Policy Adviser, and he worked on all policy and 
intergovernmental issues. And from 1985 to 1989, he was the 
head of the Colorado Transportation Commission.
    He has roots in the great State of Louisiana, which the 
Senators from Louisiana have taken note of. He was an All SEC 
academic football selection, and he received a J.D. from the 
University of Texas School of Law with honors.
    Now, Madam Chairman, I have worked with Tom Strickland for 
many years. He is known in Colorado for his deep dedication and 
love of our natural landscapes. There was an initiative in the 
late 1980s and 1990s called Great Outdoors Colorado which 
directed State lottery moneys to the acquisition of public 
lands for parks, open space and conservation. Tom led that 
charge and it is now a model for the rest of the Country.
    He is an accomplished outdoorsman. We both have a deep love 
for the outdoors and the history and the people and the 
landscapes of the West. I think and I know that this is what 
motivated Tom to public service in the first place and 
sustained two very courageous runs for the U.S. Senate.
    Madam Chair, I want to end with a reference to Tom 
Friedman, because I am often influenced by his thinking and his 
writing. Over this last weekend, Mr. Friedman reminded us of 
the value of inspirational leadership. He quoted Dov Seidman, 
the author of the book ``How,'' on what it takes to make an 
organization sustainable. He wrote, ``Laws tell you what you 
can do. Values inspire in you what you should do. And it is a 
leader's job to inspire in us those values.''
    I mention this because I know that as the Assistant 
Secretary, Tom's job will demand both enforcement of laws, 
regulations and important rules, and inspired collaborative 
leadership. He knows, as one of the Country's most successful 
lawyers, how to enforce environmental laws. And as a man who 
draws inspirations from our mountains, plains and waters, he 
knows how to motivate and lead others.
    So with Secretary Salazar at the helm, I know that Tom 
Strickland will be a strong and effective partner, and I am 
very pleased to support his confirmation. It is truly an honor 
to introduce him here today.
    Thank you.
    Senator Boxer. Senator Udall, thank you so much for being 
here. I know everybody has hectic business to attend to, so we 
understand if you need to leave.
    We are delighted that Senator Bennet is here. We are 
thrilled.

         OPENING STATEMENT OF HON. MICHAEL F. BENNET, 
            U.S. SENATOR FROM THE STATE OF COLORADO

    Senator Bennet. Thank you, Madam Chair.
    I would only echo what my senior Senator has said, from our 
State. Tom Strickland is one of the finest public servants that 
has ever been produced by the State of Colorado. He is a person 
for whom no challenge is too big, either in the public or the 
private sector.
    Tom and Beth and their beautiful daughters are neighbors of 
ours in Denver. You could throw a rock if you wanted to from 
one house to the other.
    Senator Boxer. You better be careful. You better support 
everything he wants to do over there.
    Senator Bennet. I will. But I will tell you that he is 
somebody who cares passionately about making sure that our 
generation leaves more opportunity, not less, to the generation 
that is coming after us, that we preserve and protect our 
public lands. It is a great testament to Tom that he has been 
willing to come out of the private sector again to come serve 
his Country. So I am incredibly proud to be here today to 
support his confirmation.
    Thank you.
    Senator Boxer. Thank you so much.
    With that, we will turn to our nominee, and then in the 
order of arrival, we will turn to other Senators: Udall, 
Carper, Klobuchar, Lautenberg.
    [Remarks off microphone.]
    Senator Boxer. Just vote for the one nearest you. That is 
what I think.
    [Laughter.]
    Senator Boxer. OK.

 STATEMENT OF THOMAS L. STRICKLAND, NOMINATED TO BE ASSISTANT 
 SECRETARY OF FISH AND WILDLIFE AND PARKS OF THE DEPARTMENT OF 
                          THE INTERIOR

    Mr. Strickland. Thank you, Chairman Boxer, Senator Inhofe 
and members of the Committee.
    I am honored to be here with you today as President Obama's 
nominee for Assistant Secretary for Fish and Wildlife and 
Parks. Earlier this week, I also appeared before the Senate 
Energy and Natural Resources Committee.
    I am joined here today by my wife Beth, and I would like to 
thank her for all of her love and support over many years. Not 
able to be with us here today, but with us in spirit, are our 
three daughters, Lauren, Annie and Callie.
    Like each of you, I have a deep commitment to public 
service and consider it a privilege to have the opportunity, if 
confirmed, to return to government service. As I will briefly 
describe in a few moments, I have had the opportunity during my 
career to serve in both State and Federal Government, and these 
experiences have been the highlights of my career.
    The responsibilities of this job include oversight of two 
very important parts of the Interior Department: the Fish and 
Wildlife Service and the National Park Service. As I will 
address in my brief remarks, I believe my passion and 
experience qualify me for this position at this important 
moment in time.
    A lawyer by training, I spent the majority of my career in 
Colorado, where I have worked in both the public and private 
sectors. Following a judicial clerkship in 1979, Beth and I 
moved to Denver. In 1982, I was asked by then-Governor Lamm to 
join his office as his Chief Policy Adviser. In that role, I 
dealt extensively with the Interior Department and other 
Federal agencies regarding many important natural resource 
issues. Because one-third of Colorado is Federal land, the 
decisions made in Washington have a profound impact on the 
State and consumed much of our attention. If I am confirmed, I 
believe this perspective will be valuable in helping me 
understand and work with State and local governments.
    After I left the Governor's office and returned to private 
law practice, I was asked by Governor Lamm to serve on and 
eventually chair the Colorado Transportation Commission, where 
I had the opportunity once again to work with many different 
Federal agencies including the Fish and Wildlife Service.
    My civic and community work included volunteering on many 
environmental and natural resource issues. I helped create the 
Great Outdoors Colorado Program, which Senator Udall mentioned, 
and served on its original organizing board. We now proudly 
look back at Great Outdoors Colorado and the fact that it has 
invested $600 million and preserved 600,000 acres just in the 
State of Colorado for open space, parks and wildlife programs 
since 1993.
    In 1999, I was appointed by President Clinton and confirmed 
by the Senate as United States Attorney for Colorado. I was 
sworn in the day after the Columbine tragedy and spent my first 
day on the job at the school with the Attorney General of the 
United States.
    During my tenure as U.S. Attorney, I had the responsibility 
of representing the United States in all civil and criminal 
matters in Colorado, and I worked closely with the Interior 
Department, as well as other Federal agencies. Once again, this 
experience gives me a valuable perspective on the role and 
impact of the Federal Government.
    While these professional experiences contribute to my 
qualifications for this position, I believe my passion for the 
mission of the Department is equally relevant. I grew up 
hunting and fishing with my father and brother, and bring the 
perspective of a sportsman to this task. After law school when 
we moved to Colorado, we quickly fell in love with the 
outdoors, the mountains, rivers, deserts, parks and wildlife of 
the West.
    I recognize and appreciate that our system of national 
wildlife refuges span all 50 States and play an invaluable role 
in preserving and protecting countless species and habitats. 
Yet these vital lands face enormous pressures from population 
growth and climate change. I believe we must develop a 
strategic plan to ensure that these challenges are addressed so 
that we have a 21st century vibrant wildlife refuge system.
    One of the most significant responsibilities of the Fish 
and Wildlife Service is the implementation of the Endangered 
Species Act, a critically important law to ensure the 
conservation of plant and animal species and habitat. My 
commitment to you is that, if confirmed, I will work to see 
that the decisions of the Service are based on science, not 
politics.
    While it does not fall within the direct jurisdiction of 
this Committee, I would like to say a few words about the other 
primary area of responsibility of this position, overseeing the 
National Park Service. Like many families before us, many years 
ago our family bought a book on the national parks and set out 
to see all of them. We are still working on it, and from Acadia 
to Great Smoky Mountains to Yosemite, we have enjoyed most of 
them. They are, as Wallace Stegner famously said, America's 
best idea. It is time for our generation to be responsible 
stewards for these treasured icons.
    As the park system approaches its 100th anniversary, the 
parks are in great need of significant investment. Just as 
President Lincoln did not let the Civil War keep him from 
setting aside and protecting Yosemite Valley, we must not use 
our current economic circumstances as an excuse for inaction. 
If confirmed, I will do everything in my power to protect and 
enhance our incomparable park system.
    In closing, I would be deeply honored to serve as Assistant 
Secretary for Fish and Wildlife and Parks. I have a deep 
passion for the mission of these two services, and great 
respect for Secretary Salazar, a friend for almost 30 years, 
and his vision for the Department.
    Thank you for the opportunity to present this statement, 
and I would like to affirm, as requested by Senator Inhofe, 
that I would treat the requests of the minority with the same 
attention and responsiveness as those of the majority.
    Thank you, Chairman.
    [The prepared statement of Mr. Strickland follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Thank you so much, Mr. Strickland. We all 
support that. We have been in the minority and we know how it 
feels, and they need to have the same respect as everybody 
else. So I definitely support that, and I thank you for saying 
that.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.
    Let me just say that our Chairwoman has been an incredible 
leader on these issues, and I very much appreciate her giving a 
lot of attention this morning to your nomination, Mr. 
Strickland.
    The first thing that I wanted to ask you about has to do 
with the two positions, because you know, as we talked 
yesterday in my office, this Assistant Secretary for Fish and 
Wildlife, 44 percent, tell me if I am wrong, but we are talking 
44 percent of the Department of Interior is under your 
Assistant Secretary position. And this is roughly 30,395 
employees.
    So that is a huge job, that in itself. And let me say at 
the beginning from what Mark Udall and Senator Bennet had to 
say, I mean, you have incredible credentials and I know that 
you are a Herculean-type person, and I can tell with your wife 
smiling behind you that she believes that, too.
    But these are two full-time jobs, Chief of Staff and being 
the Assistant Secretary. So my hope, in a way, is that, and I 
know you have the enormous trust of the Secretary Ken Salazar, 
my hope is that you will be able to assume the Assistant 
Secretary position, get him, the Secretary, in a comfort level 
with somebody at some point down the line that can take over 
that, because they are two very, very important positions. I 
just think it is difficult to do both of those.
    I know that you can do them for a significant period of 
time, but that is my hope is that we, because there is so much 
that needs to be done. And really, that is my first question, 
and then I would like you to also talk about the issue of how 
you see consensus-building in dealing with these environmental 
issues that are before you, both in Parks and in Fish and 
Wildlife and endangered species. But do you believe you would 
be able to give sufficient time and leadership to both the 
Parks and Fish and Wildlife Service, as well as Secretary 
Salazar and the entire Department of Interior? Can you describe 
to the Committee how you will manage both of these positions at 
once? Please.
    Mr. Strickland. Thank you, Senator.
    If I could just, before I respond to that, Madam Chairman, 
I haven't been sworn in and I just want to make sure that as I 
go forward that----
    Senator Boxer. We don't need to swear you in.
    Mr. Strickland. That is fine on that basis.
    Senator Boxer. This isn't the inauguration where you have 
to.
    [Laughter.]
    Mr. Strickland. Thank you.
    Senator Boxer. You are fine. What we do have to do is ask 
you a couple of questions for the record before it ends, but 
you are in good shape.
    Mr. Strickland. Very good. Very good.
    Senator Udall. You can also see he is a fine lawyer and 
trying to give us a little advice here.
    Senator Boxer. I think, absolutely, absolutely.
    [Laughter.]
    Mr. Strickland. Well, Chief Justice Roberts is a former law 
partner of mine.
    Senator Boxer. Oh, is that right?
    Senator Klobuchar. Did you advise him on the word 
faithfully?
    [Laughter.]
    Mr. Strickland. I won't claim any responsibility for that.
    Senator, first of all I want to say that it is an honor to 
be considered for a position at the Department of Interior and 
to be in the same room with the son of one of the greatest 
Secretaries of Interior of all time, Stewart Udall. I have to 
pay homage to your father's tremendous legacy. The Department 
will always reflect his stewardship, so I just want to 
acknowledge that. And certainly I want to acknowledge your 
uncle as well, Mark's father, and his contributions. It is a 
privilege to know your father and to have known Mark's.
    With respect to your question relative to the fact that 
Senator Salazar has asked me to be both the Chief of Staff and 
the Assistant Secretary, let me speak to that. First of all, 
that is what he asked me to do, and he is pretty persuasive. I 
have been in the role of Chief of Staff since January 21, so I 
have been helping the Senator as the transition has been 
undertaken and as we have tried to recruit and get the team 
through the confirmation process.
    I will commit to this Committee, as I did to the Energy and 
Natural Resources Committee, that my first priority will be the 
responsibilities of this Assistant Secretary position. We are 
staffing the personal operation of the Secretary with that in 
mind. I have a very strong Deputy Chief of Staff, Renee Stone. 
She literally is a Rhodes Scholar and she is going to take most 
of the responsibilities of the Chief of Staff day to day.
    I will have an office down on the third floor with Fish and 
Wildlife and the Parks Department. If there is any conflict, 
then I will make further adjustments. But my primary focus will 
be on the responsibilities for the position that I am in front 
of you all here today to discuss.
    With respect to the second part of your question and the 
role of consensus in resolving these issues, I completely agree 
with you. I believe in particular that the Endangered Species 
Act has many vehicles for partnerships to accomplish the goals 
of preserving habitat and endangered species. And those 
partnership situations, whether they are habitat conservation 
plans or other kinds of similar undertakings, are central to 
the success that we want to have going forward.
    I believe I have experience at that. Following the 
Columbine tragedy in Colorado, we embarked on an effort as U.S. 
Attorney to strengthen the enforcement of the gun laws. I think 
for the first and only time, at least up to that point, we got 
Wayne LaPierre and James Brady together on the same stage at 
the same time to join in tougher enforcement of gun laws in 
Colorado.
    So we appreciated at that time the importance of bringing 
disparate interests together. I wish I could say that 
particular partnership had continued, but in any event I think 
it is central to this task and I will commit to you that I will 
do my best to further that.
    Senator Udall. Thank you for those answers. Thank you.
    Senator Boxer. Senator Carper has very sweetly yielded to 
Senator Lautenberg for a couple of minutes.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. I will be brief, and say hello, Tom. We 
have known each other for some time. Tom Strickland called me 1 
day shortly after I wrote a law that bans gun permits for 
spousal abusers. And Tom Strickland called me up and said, 
Frank, I got a conviction there. This guy is going to get 3 
years for violation of, correct me if I am wrong, but be 
careful.
    And we have had a lot of contact. And one thing I know, and 
my friend Mark Udall has responsibility for two beautiful 
grandchildren, my son and daughter-in-law who live in Colorado, 
and we are tree huggers and nature lovers. Call it what you 
will. I know that we share the same view on our responsibility 
to nature and our responsibility to the environment.
    Madam Chairman, I have a longer statement which I will not 
read out of gratitude for the forbearance of my colleague from 
Delaware, and some questions. One, that we are very excited in 
New Jersey now. I look out at the mountains of New Jersey, 
well, hills of New Jersey. Our mountains, the highest mountain 
in New Jersey is 800 feet. It is really devilish getting up 
there, but we have now in New Jersey just been awarded historic 
protection to an area called the Passaic Falls. It is the city 
I grew up in, Paterson, New Jersey, an industrial town, abused 
by industry. Factories used the river as a way to discharge 
effluent.
    And we are all so proud of that. And Mr. Assistant Chief of 
Staff, I hope that you will be able to join us. The bill was 
passed last week, and the measure would designate 35 acres of 
the Paterson Great Falls Historic District as a National 
Historic Park. President Obama is expected to sign the bill 
into law early next week.
    I hope that you will come and visit us in Paterson to 
welcome our newest National Historic Park. As an addendum, 
Alexander Hamilton began his influence on the industrial 
revolution in Paterson, and we still see raceways that funnel 
the water to factories and provided the energy and power, and 
we welcome you and Beth Strickland to this assignment. And I 
know very well that you will handle it well.
    As a managing partner who was able to keep our good friend 
at that time in order, no names because he runs a very 
significant law firm, and you were a partner there as well. So 
I know that you can handle very difficult assignments.
    Thank you very much, and thank you to Senator Carper.
    Senator Boxer. Thank you.
    Senator Carper.
    Mr. Strickland. Thank you, Senator. And I will look forward 
to visiting that new park and we are very excited about it.
    Senator Carper. Well, that is a great segue into my 
question. Again, welcome to you and to your wife. Nice to see 
you.
    Let me just say to her, thank you very much for your 
willingness to share this guy with us in this way.
    The President came and spoke with us, by the way, at our 
caucus and talked about his budget. In responding to him, I 
suggested some ways we could save money. It is easy to come up 
with the ways to spend money. Actually, I think in his budget 
it makes very wise investments, for the most part. But the idea 
of you serving as Chief of Staff and as the Assistant Secretary 
in this post, that is a good way to save money. I hadn't 
thought of that.
    We have Senator Amy Klobuchar over here, who is doing 
yeoman's labor. She is like the only Senator from Minnesota, 
and she is doing the work of two Senators. I asked Harry Reid, 
our leader----
    Senator Klobuchar. Well, compared to Delaware, a woman can 
always do the work of two men.
    [Laughter.]
    Senator Boxer. And two women in California, with 37 million 
people----
    Senator Klobuchar. Oh, here we go.
    Senator Boxer [continuing]. Can do the work of several men.
    Senator Klobuchar. I should have let it go.
    Senator Carper. I yield back my time.
    Senator Boxer. But we will strike that off the record.
    [Laughter.]
    Senator Boxer. We are going to give you as a result of 
having to put up with Amy and me an extra 2 minutes.
    [Laughter.]
    Senator Carper. I was the only Senator for Delaware for 5 
days after Joe Biden stepped down. And I said to Harry Reid, 
our leader, I said, you know, Harry, I am doing the work of two 
people here. Do you think I could for 5 days get paid for both 
of us? And he said, you're lucky to get one paycheck. So I am 
taking abuse from all sides.
    Earlier in your comments, you quoted Wallace Stegner who 
once described national parks as America's best idea. I don't 
know that it is the best idea, but it is certainly a great 
idea. My family and I have been privileged to visit national 
parks in many places around the Country. In fact, my boys are 
now in college. One of them was actually here yesterday. He 
spent the day shadowing me. He is on spring break, which is 
great fun.
    And I remember we were thinking of taking a trip maybe to 
go to Alaska several summers ago, maybe four or five summers 
ago. And we got on the Internet, the National Park Service Web 
site, and we just decided to see what kind of national parks 
were available for us to visit. And there are wonderful 
national parks in Alaska, bigger than the whole State of 
Delaware, as it turns out. And we ended up going and spending 
7, 9, 9, 10 days there. We had a great time.
    But as we went through the National Park Web site to look 
at the different offerings, we found that there are 49 States 
that had national parks to visit, and one State, ironically, 
did not. And it is a State where, I think, America's best idea, 
which I think is our Constitution, was first adopted. And for a 
whole week or so, Delaware was the entire United States of 
America. We were the first State to ratify the Constitution. 
And we have done a whole lot of other things as well that we 
think are deserving of recognition and of a national park, but 
we have never gotten one.
    Dirk Kempthorne, who was Ken Salazar's predecessor, he and 
his staff were very good to work with us to address that. And 
we got authorization passed to do a study, funding for a study. 
That has been completed. The study was presented late last year 
by some very fine people who work at the National Park Service 
in recommending a national park in Delaware, with a little 
different kind of approach, but one that celebrates our 
national heritage.
    And one of Dirk Kempthorne's, one of his hopes was that 
before he finished, left as Secretary, they could wrap it up 
and finish. We still need to pass authorizing legislation 
through the Congress and my hope is we will be able to do that 
and to move forward.
    I just want to bring this to your attention. Our friend Ken 
Burns, the famous film maker who lives in New England now, 
actually grew up in Delaware. And one of his latest creations, 
as you probably know, I think it is called America's Best Idea, 
The National Park. And he and I have shared notes before about 
how ironic it is that the State that helped start his Country 
is the last State to actually be eligible for a park.
    I just want to put all that at your doorstep today and just 
ask for your thoughts.
    Mr. Strickland. Well, thank you, Senator. I have had a 
chance to meet with Ken Burns, in fact, and the Secretary has, 
and we look forward to the opportunities of sharing his great 
craftsmanship with the American people. I think it is going to 
create an unprecedented additional level of support for the 
park system as that rolls out this fall. I will commit to work 
closely with you and I am sure the Secretary will as well, to 
remedy the fact that there is one State that doesn't have a 
national park. And so I will make that commitment here today 
and look forward to working with you to that end.
    Senator Carper. Good. I appreciate that commitment, and we 
will look forward to working with you and this Administration, 
much as we did the last.
    The other thing that Secretary Salazar was good to say, I 
spoke with him about this issue a couple of months ago and he 
was aware of it even as a Senator. And he said to me, if you 
think that Dirk Kempthorne was supportive of your initiative, 
you have not seen anything yet. So I appreciate the commitment 
from both of you.
    And Madam Chair, I have a statement for the record. And 
with that, I will bid you adieu and wish you good luck.
    Thank you.
    [The referenced material was not received at time of 
print.]
    Mr. Strickland. Thank you, Senator.
    Senator Boxer. Thank you, Senator.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chairman.
    And I want to congratulate you, first of all, for holding 
this hearing so quickly, and also to the Administration, the 
President, for despite all the big challenges going on, is 
working tirelessly to fill as many seats in government as there 
are in a hockey arena, a college hockey arena. That is a 
Minnesota analogy. It is true. We just figured that out.
    I also want to welcome my friend, Tom Strickland, who I 
know was the U.S. Attorney. I knew him then, as he worked in 
Minnesota, so he knows our State well. Thank you so much.
    I just see this as such an opportunity for Secretary 
Salazar and you, with our shared views that, first of all, we 
shouldn't be operating in an evidence-free zone when it comes 
to the protection of our natural resources.
    Second, we have an opportunity, and I know both you and 
Secretary Salazar believes this, to have our environmental work 
go hand in hand with our work in the energy area to promote 
home-grown energy and others.
    So I just had a few questions. The first is really about 
our national parks. I can tell you I know the stimulus package 
included some money. As you probably know, we have the Boundary 
Waters Canoe Wilderness Area as well as Voyageurs National Park 
in Minnesota, that are really very close to where my dad grew 
up and my relatives in northern Minnesota.
    And I know that there is $750 million in there for the 
National Park Service, and some of the funds are scheduled to 
go to deferred maintenance and critical repairs, and a large 
chunk of the funds, $589 million, is slated for replacing 
facilities and cleaning up mine sites.
    I just wondered if you could talk a little bit about your 
priorities for that stimulus money.
    Mr. Strickland. Thank you, Senator Klobuchar, and thank you 
for your welcoming remarks.
    We are in the process right now of working with OMB to 
refine a list of projects for the $750 million that has been 
directed by the Congress to the national park system. And there 
were parameters, as you articulated, set forth. In addition, 
Secretary Salazar has challenged the services and bureaus of 
the Department that are getting dollars to have their projects 
also reflect an emphasis on renewable energy, on promoting what 
he called the ``treasured landscapes and special places in 
America,'' as well as promoting youth programs.
    So those are some additional areas of emphasis that we are 
trying to accommodate as we go through the list of potential 
projects. We have what has been estimated to be a $9 billion 
backlog of deferred maintenance in the park system. So while 
$750 million sounds like a lot and is a lot, in the context of 
the needs we have many more deserving projects than we have 
immediately available dollars.
    So of course the driving urgency of the program is to have 
shovel-ready projects that create jobs that can help alleviate 
the economic suffering that is so strongly felt throughout the 
Country. So we are trying to accommodate all of those 
considerations.
    We don't have a list to share yet, but we will shortly, and 
we are literally in what we hope will be the final stages of 
review with OMB, and I think that they are going to show wide 
geographic diversity and honor these priorities.
    So I will be happy to work with you. We are going to post 
all of that on the Internet and we will be making announcements 
as we get the final sign-off from OMB.
    Senator Klobuchar. Thank you.
    The national parks have always been a part of my family's 
history, as they were of yours. Actually, as I was sitting 
here, I realized every family vacation we ever took involved a 
State park or a national park. My sister hiked up Harney Peak 
in South Dakota when she was still in diapers. We spent many 
times in Yellowstone and the Grand Tetons, and we have, as I 
mentioned, parks in Minnesota.
    Could you talk a little bit of how you, which is a big 
issue in our State, how you balance the multiple uses of parks, 
whether it is some grandfathered-in trails or things like that? 
We have had, of course, as you know, battles over the Boundary 
Waters in our State's history. And as Jim Oberstar declared, 
the 100-year fight over the Boundary Waters has finally ended, 
and we have been able to work that. But could you talk a little 
bit about multiple uses in parks?
    Mr. Strickland. I would be happy to, Senator.
    It is a central premise of our public lands to honor the 
concept of multiple use and this omnibus lands bill reflects I 
think the values that we bring to our management of our public 
lands. Now, some lands are deemed to be so fragile and special 
that we should have a minimum of human activity. And of course, 
those are wilderness designated areas. At the other end of the 
continuum, you have lands that are actively developed for coal 
mining or other kinds of intensive development.
    Along that continuum, it is often a balancing act. And with 
respect to our national parks, we have a wide range of requests 
that come in all the time for hunting activities. In 
Yellowstone, for another example, the level and use of 
snowmobiles has been an ongoing issue of conversation and 
litigation, for that matter. Right now, we are in Yellowstone 
in the middle of dueling Federal courts, one in DC and one in 
Wyoming, that are directing us to do different things.
    So I think our basic philosophy as we sort through those 
decisions will be to honor the values that are central to the 
mission of the park. And so while in some parks you can have 
more intensive activity in certain areas, other parts of the 
parks, as designated, for example parts of Rocky Mountain Park 
are now designated as wilderness as a result of the bill that 
the Congress just passed and the President is expected to sign 
on Monday.
    So the level of activity in those places will be, in terms 
of motorized vehicles, et cetera, will be very different than 
if they hadn't gotten that designation. So I think what we need 
to do is we need to look at these things on a case by case 
basis, but recognize that certain activities are going to 
impinge on other people's enjoyment, and so we need to be able 
to have some of the core missions of these parks honored as a 
place of respite and a place for wildlife to be able to live 
harmoniously.
    Senator Klobuchar. Madam Chair, could I ask one more 
question?
    Senator Boxer. Yes.
    Senator Klobuchar. OK.
    In Minnesota, we love our fishing. I think I have the 
statistic once of how many tens of millions of dollars we spend 
every year on worms. It is really quite impressive to show how 
it contributes to our economy. But one of the things that has 
concerned us about Lake Superior and some of our lakes is just 
the danger of invasive species.
    My staff actually told me that Senator Nelson of Florida is 
trying to wrangle you to go down to Florida to have an 18-foot 
Burmese python wrapped around you and Secretary Salazar. I 
actually have seen these pythons. I will tell you it is 
disturbing that they suddenly landed in the middle of the 
Everglades.
    But we also have some issues with invasive species in 
Minnesota, particularly the Asian carp. I don't know if you 
know about this issue. We have actually got some funding for 
dams and there is a YouTube video I suggest you look at that 
shows that these huge Asian carp jumping out of the water and 
hitting fishermen on the head. I am not kidding.
    And so we are very concerned about these issues of invasive 
species. One, I want to extend to you and invitation to get hit 
over the head by an Asian carp. And then second, I just 
wondered about your general view of invasive species and what 
role the Department could have with regard to those.
    Mr. Strickland. Well, thank you. I would be happy to come 
visit the carp as well. And Senator Nelson has invited us to 
come down and see the Burmese pythons, which I think do grow to 
that size.
    Senator Klobuchar. It scared my daughter, so it is worth 
seeing.
    [Laughter.]
    Mr. Strickland. We have this issue in many places, and we 
have it not only with respect to plants, but with fish and 
other animal and reptile species as well. And it is a serious 
problem. And the Department of Agriculture also has funding to 
assist. And so what we are trying to do is identify the highest 
priority areas and try to address those.
    I know that the Asian carp is high on our list. In fact, it 
had been brought to my attention before this briefing. In the 
Grand Canyon, we have invasive species of plants. We have that, 
I know in California we have some of the same issues.
    So I think it is something that has not gotten as much 
attention as it should of, and we will commit that we will give 
it more attention. And to the extent that we have adequate 
funding, we will do our best to address the problem.
    Senator Klobuchar. Thank you very much.
    Senator Boxer. Thank you, Senator Klobuchar.
    I am going to do my job here, and then I am going to hand 
the gavel over to Senator Cardin and he will run the rest of 
the hearing and close it down.
    I am going to send you a couple of things to look at. There 
was an article February 27, 2007 in the L.A. Times, Mighty Lean 
Times For Wildlife Refuges. And it goes through the fact that 
the budget for these were just starved, and we have all these 
problems. You were supposed to build visitors centers and 
didn't do it.
    One of the arguments I always make about preservation of 
our environment in California is that it is good for the 
economy. We have asked various firms to let us know about this, 
with the 700,000 acres of wilderness designation that just 
appeared, that just make it into this wonderful lands bill; 400 
permanent jobs and millions of dollars in income to our State.
    So when we fail to maintain and protect these areas, we pay 
a price. At the end of the day, people aren't going to come. So 
here, we have over 40 refuges in our State, and I am going to 
send you, well, I am going to send it over to you, not that you 
need it. It is on your Web site, but I am going to send it over 
to you. Also a map.
    You know, California is just dotted with these places, 
these wonderful glorious places. So I am going to send this 
over to you, as well as this article.
    So there was very little money, then, to hire a second 
full-time law enforcement officer, for example, in the San Luis 
National Wildlife Refuge complex, because we really need to 
ensure that people aren't misusing these refuges. So I am going 
to hope that, you are going to know this, but I am going to ask 
you for the record, as you sit around these meetings with your 
superiors, I hope you are going to be a real stalwart for 
arguing.
    It is not always funding. Sometimes it is just you could 
shift some funding. You could make some of these changes, but I 
am going to assume that you are going to fight hard so that you 
can do this job right. You are going to tell honestly what you 
need to do it right. If you don't, if you can't, if we can't 
give it to you, that is another story.
    But I guess my question is, will you be an advocate for 
what you are supposed to be looking after?
    Mr. Strickland. Thank you, Chairman.
    I can assure you that I, along with Secretary Salazar, take 
the point that you make very seriously. We have refuges in all 
50 States. We have about 93 million acres of wildlife refuges. 
They are under enormous pressure from global climate change in 
many cases, and population encroachment. We have just embarked, 
I think, just in the last months of the previous 
Administration, in the first assessment of the impact of 
climate change on our wildlife refuges to see if we have to 
make adjustments to the boundaries or if we have to set aside 
other lands, or how to manage the ones that we have.
    So we have multiple considerations that make your point 
that much more important for our consideration. And as we are 
looking at the stimulus moneys, we also recognize that 40 
million people visit our wildlife refuges annually, so they are 
an important source of economic activity and enjoyment for the 
public.
    So we will commit to work with you and your Committee and 
others to identify what the needs are and to try and spend the 
dollars as wisely as possible, and to make sure that we are 
addressing the challenges that population growth and climate 
change are putting on our wildlife refuges.
    Senator Boxer. Well, that is very important, because I have 
always believed that when you take a job like this, you need to 
be an advocate for it. And I have found under some 
Administrations we didn't have that. And all I ask is for the 
truth. You know, in order to do this job right, what is it you 
need? If we don't give it to you, that is our problem, but I 
need to know that you are going to tell us the truth, and I 
have that great sense that you will.
    I also think, I am glad you raised the stimulus issue 
because those moneys really should be used for those one-time, 
neglected improvements that we need to make, rather than the 
ongoing. The ongoing we have to do in our budget. So I hope you 
will oversee that because that is a great opportunity.
    Let me do my little business here that I have to do so that 
we can get your nomination moving along.
    In order for the Committee and other committees to exercise 
their legislative and oversight responsibilities, it is 
important that committees of Congress are able to receive 
testimony, briefings and other information.
    So first of all, do you agree, if confirmed, to appear 
before this Committee or designated Members of this Committee 
and other appropriate committees of the Congress and provide 
information subject to appropriate and necessary security 
protection with respect to your responsibilities as Assistant 
Secretary?
    Mr. Strickland. I do agree.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents, and electronic and other forms of 
communication of information are provided to this Committee and 
its staff and other appropriate committees in a timely manner?
    Mr. Strickland. I do agree.
    Senator Boxer. And three, do you know of any matters which 
you may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed as Assistant 
Secretary?
    Mr. Strickland. My investments, personal holdings and other 
interests have been reviewed by both myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    Senator Boxer. Excellent. And we are going to ask our 
Members to submit questions by tomorrow morning, with responses 
due Monday. So I am assuming that you will do whatever you have 
to do to get those responses in because what we want to do is 
mark up your nomination as early as next week. And if we miss 
that deadline, then we have to wait until after the recess.
    So are you willing to do what it takes to answer these 
questions?
    Mr. Strickland. Absolutely.
    Senator Boxer. That is right. It could be a late night 
Sunday, but I know your wife is saying, he will do it.
    [Laughter.]
    Senator Boxer. Well, I am just thrilled with this 
nomination, obviously. And I am happy to turn the gavel over to 
my friend Ben Cardin, who by the way has a very important 
responsibility. He is overseeing all of the water issues. And 
you and he will have a lot of work to do. He is a passionate 
defender of wildlife and of the environment. And I am so proud 
of my Subcommittee Chairs and give them a lot of 
responsibility.
    So I think it is appropriate, Ben, that you take as much 
time as you need and close out the hearing.
    Senator Cardin [presiding]. Well, thank you, Madam Chair, 
and I appreciate your leadership on this issue.
    Mr. Strickland, thank you for your willingness to serve the 
public in this very, very important position. I want to thank 
your family for the sacrifices that you will be making.
    I enjoyed our conversation yesterday, or the day before, 
where we had a chance to talk a little bit about your 
commitment to our environment. I hope that this new assignment 
will not prevent you from getting out and enjoying the 
wilderness of America because it is a great Country, and your 
position will have a critical role in preserving that for the 
future.
    I do want to ask you about policy guidance and the use of 
best information, science information in making judgments, 
particularly as it relates to the Endangered Species Act.
    I think most people agree that the Endangered Species Act 
is one of the most important safeguards that was enacted by 
Congress in order to preserve diversity in our wildlife, and 
that decisions should be based upon good science, good 
information, and should not be based upon political 
considerations.
    And yet a recent IG investigation pointed out that 
political interference did affect the Endangered Species Act 
implementation by the Department of Interior. And that there 
was at least some ambiguity as to how the Department should 
enforce the law because of the political guidance given by the 
previous Administration.
    Are you committed to giving the agency staff clear policy 
guidance on the implementation of the Endangered Species Act, 
which will be based upon the best science information we have 
to make sure that we carry out that important law?
    Mr. Strickland. Well, Senator, absolutely. I can say this 
on my behalf and on behalf of Secretary Salazar. One of the 
reasons I think he asked me to join him in this job is that as 
a former Federal prosecutor, he asked me to come in and help 
him address some of the historic issues that plague the 
Department with respect to the issue that you mentioned in Fish 
and Wildlife, and some management issues at the Mineral 
Management Service.
    One of the very first things that the now-Secretary did was 
to go with me out to Colorado to MMS to meet with every 
employee there to address these ethics and integrity issues. We 
have sent the message throughout the Department that the rule 
of law will apply and that policy decisions will be based on 
science and on the appropriate considerations, and not politics 
or special interests.
    Senator Cardin. Well, I thank you for that commitment. I 
was pleased to see the President make a similar commitment. It 
was in a different context. We were there dealing with 
research. But he made a similar declaration, actually signed an 
executive order that the guidance would be based upon the best 
science, and not political considerations, which clearly has 
been the tradition within the Department of Interior and also 
within the other departments of government, but was 
compromised, I think, in recent years.
    So we are very concerned about making sure the consultation 
process that was envisioned in law to get the best possible 
information-based decisions becomes the policy of the 
Department of Interior, particularly as it relates to the 
Endangered Species Act.
    Let me move on to a second issue that we talked about, and 
that is the concerns on our refuge, our wildlife refuge, and 
what is happening particularly as it relates in Maryland to the 
Blackwater. The Blackwater National Wildlife Refuge is a 
valuable area of our State for diversity. We are currently 
losing about 150 acres a year because of sea level change. We 
believe it is a result of global climate change. We are in 
danger of losing the local habitat for the Baltimore orioles. I 
don't know what that means as far as our State is concerned, 
but I think it reflects the consequences of not dealing with 
global climate change.
    In the 2009 omnibus appropriations bill, language directed 
the Secretary of Interior to develop a national strategy to 
assist wildlife and the ecosystems across our Nation from the 
adverse impact of global climate change.
    Can you just share with us your thoughts as to how you 
would go about advising the Secretary in complying with that 
provision in the omnibus appropriation bill?
    Mr. Strickland. Well, thank you, Senator.
    We do have a special challenge, as I alluded to a few 
minutes ago, in trying to protect the role played by our 
wildlife refuges for the next century. Those that set refuges 
aside many, many years ago had vision, and the system has been 
in place for many, many years. We have to match that now in the 
time when we are seeing these pressures.
    So we have a lot of good scientists at the Department. We 
have 8,700 at USGS. We have a lot of fine biologists and 
scientists at Fish and Wildlife. What we are going to do is 
fast track a baseline analysis throughout the Country of the 
changes that are impacting the refuge in your State that you 
just mentioned, and others, and determine what remedial actions 
we need to take, and they will be different in different 
places.
    Some places we may acquire additional lands. Other places, 
we may do habitat restoration. So we are going to do it on an 
accelerated basis and we are going to do it with a sense of 
urgency and mission because we understand that these species, 
if their habitat is no longer available, will be pressured and 
we could lose them. So it is a very important part of our role.
    Senator Cardin. Let me just stress, I think there are 
several parts to this concern. We certainly want to look at 
remedial action, what we can do to save diversity and species 
in America. Each State has its own challenges. In Maryland and 
our region, the Chesapeake Bay is a huge challenge. We are 
seeing patterns dealing with the future of the blue crab that 
concerns us.
    We know that global climate change has produced a sea level 
change, but also a warming of the water which affects how our 
sea grasses can survive, which affects where juvenile crabs can 
hide. And if they can't hide, they can't survive. And the crops 
are getting smaller and smaller, which is affecting diversity 
in the whole food chain in Maryland. And I think every Senator 
could tell you another story about what is happening in their 
own States as far as fish and wildlife is concerned.
    So part of our concern about the dangers of global climate 
change is how do we have remedial programs to preserve 
diversity and to preserve our economy and our way of life. But 
the other is so we can take action to prevent this type of 
damage.
    One of the problems we have is that many Americans have yet 
to really understand the day to day risks associated with 
global climate change. And the more information we can get 
available to them, and I think you can play a role here, we can 
work and develop policies based upon facts. And that is what we 
are trying to do. We are trying to use good science and facts 
to say what can we do to change the future direction of our 
environment for the better, and what can we do to try to fix 
the damage we have already done.
    That is certainly our challenge in the Chesapeake Bay. In 
the Chesapeake Bay, we have taken steps to try to correct a lot 
of the problems in the bay, but we also want to prevent the 
future decay as a result of matters that we can control, 
whether it is global climate change or whether it is pollution 
issues or whether it is farming practices or whether it is 
runoff issues. All of that will have an impact on preserving 
the diversity of fish and wildlife in our region.
    So I would hope that the strategy that you come out with 
within the Department of Interior will be mindful that you can 
play a dual role in educating the public to take action to help 
the future, as well as remedial programs that are our best 
chance to preserve our way of life and our future for diversity 
of wildlife and fish in the United States.
    Mr. Strickland. Well, thank you, Senator. I think it is 
fair to say that the Department has been behind the curve on 
this, and we have some catching up to do. We need to bring a 
sense of urgency, because you said it very well. The challenge 
is there.
    Senator Cardin. And let me just concur with Senator Boxer's 
comments. We are so pleased that you willing to take on this 
responsibility. I certainly hope that the Committee can 
complete its review quickly and that your nomination can go to 
the floor for action so that our colleague, our former 
colleague can have a little bit of help in the Department. I 
know it gets lonely there without having confirmed positions. 
So we hope we will be able to give him a confirmed position and 
be able to move quickly on your nomination.
    And with that, our Committee will stand adjourned.
    Thank you very much.
    Mr. Strickland. Thank you, Senator.
    [Whereupon, at 11 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Madam Chairman, thank you for holding this hearing.
    Today we will hear from Tom Strickland, nominated for 
Assistant Secretary for Fish and Wildlife and Parks at the 
Department of Interior.
    The nominee has extensive, relevant, on-the-job experience, 
and has made major contributions in his area of expertise. 
Unfortunately, he will face some daunting challenges. During 
the last Administration, decisions made in the Department of 
the Interior ignored the role of science with frightening 
regularity. The nominee is charged with restoring the role good 
science must play in making good public policy. The Department 
of Interior has world-class scientists as part of its 
workforce. The challenge for Mr. Strickland will be to 
reinvigorate that scientific expertise and re-empower these 
scientists. Secretary Salazar, as well as the President 
himself, has promised to return scientific integrity to 
government. I will be listening closely for a similar pledge 
from you today.
    The first front for restoring the role of science will be 
addressing the problems associated with the Endangered Species 
Act. The highly politicized way in which this critical statute 
was handled during the last Administration has left a legacy of 
poor decisions, discarded science, and policies that are being 
challenged successfully in our courts.
    We need your full attention focused on restoring the 
integrity of the ESA process.
    In addition, our National Wildlife Refuges and National 
Parks are all in a state of serious disrepair. The backlog of 
deferred maintenance is overwhelming.
    The American Recovery and Reinvestment Act provided 
substantial resources to the Department of Interior to address 
some of those issues in both our refuges and our parks. But 
that is just the beginning. We will be looking to you for long-
term investment plans that will restore these jewels of our 
public lands to their full glory.
    We will also be looking to you for how best to manage many 
of the impacts of global climate change. The Fish and Wildlife 
Service will be in the forefront of national efforts to address 
new land management issues as well as the adaptation needs of 
our wildlife brought about by the impacts of climate change.
    As I mentioned to you when we visited in my office earlier 
this week, you will find few better examples of the impacts of 
climate change than in the Blackwater National Wildlife Refuge 
on Maryland's Eastern Shore. I encourage you to come to 
Blackwater with me to see firsthand the impacts of climate 
change and to discuss ways in which we can creatively address 
these land management and adaptation issues.
    Madam Chairman, I think Mr. Strickland is highly qualified 
and I hope that he will receive broad, bi-partisan support from 
this Committee and the entire Senate. President Obama needs to 
get his team into place, and I hope we will act quickly to get 
Mr. Strickland confirmed and to work for the American people.

          Statement of Hon. Christopher S. Bond, U.S. Senator 
                       from the State of Missouri

    Every year, Missouri farmers understand that we will have 
spring rains, which may damage or break levees.
    And yet every year Missourians have to beg the Fish and 
Wildlife Service and the Corps of Engineers to prevent further 
flooding with a man-made spring rise, which they call a 
``pulse.''
    This entire battle which puts human lives and farmland at 
risk is all done in the name of a fish. The Pallid Sturgeon. 
Even though some reports show that a spring rise has no impact 
on mating habits, we continue to have this debate.
    The spring rise has been strongly opposed by Missouri DNR 
under four separate Governors of both parties. Democrats and 
Republicans have all concluded that the value of this is 
experiment is dubious and risks are real.
    I have been fighting the man-made spring rise for years and 
for years know from experience that you cannot anticipate the 
amount of waterfall from the time the water is released at 
Gavin's Point dam until approximately 10 days later when it 
reaches Jefferson City, Missouri.
    To add insult to injury, each year we find that many of our 
land owners are still waiting for the levees to be repaired 
from the last year's flood events. This is simply unacceptable.
    It would be great of the Fish and Wildlife Service to be 
out monitoring the impacts of the natural rises that occur each 
year and the impacts that these natural ``pulses'' have on the 
mating habits of this fish. Otherwise, we will never know if 
this man-induced flood is needed. I hope you will consider this 
monitoring in the future. Our river should not be used as a 
grand scale science experiment.


                                 [all]
                                 
</pre></body></html>
